            Office of the Inspector General
        Tennessee Valley Authority
                        Semiannual Report
          October 1, 2013 - March 31, 2014




BALANCING MOBILITY
  WITH SECURITY
      TVA Power Generation Six Months Ended March 31, 2014
                                            (in millions of kilowatt hours)
                            Natural gas
                         and/or oil-fired            Nonhydro     VV Coal - 29,292
                                      8%             renewable
                                                     resources
         Hydroelectric                               <1%          VV Nuclear - 27,217
                 12%
                                                           Coal
                                                           41%    VV Hydroelectric - 8,741

                                                                  VV Natural gas and/or oil-fired - 5,763

                                                                  VV Nonhydro renewable resources - 2
           Nuclear
             38%




2   TVA OIG Semiannual Report
                              Table of Contents
                                Balancing Mobility With Security



Message from the Inspector General.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Special Feature  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

Noteworthy Undertakings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

Executive Overview  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Organization  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

Evaluations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

Investigations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

Legislation and Regulations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

Appendices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

Appendix 1 – Index of Reporting Requirements Under the Inspector General Act  . . . . 43

Appendix 2 – Audit and Evaluation Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . 44

Appendix 3 – Audit and Evaluation Reports Issued with Questioned and
                   Unsupported Costs and Recommendations for Better Use of Funds  . . . . 46

Appendix 4 – Evaluation Reports with No Management Decision . . . . . . . . . . . . . . . . 48

Appendix 5 – Audit and Evaluation Reports with Corrective Actions Pending  . . . . . . . 50

Appendix 6 – Investigative Referrals and Prosecutive Results  . . . . . . . . . . . . . . . . . . 54

Appendix 7 – Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

Appendix 8 – Government Contractor Audit Findings . . . . . . . . . . . . . . . . . . . . . . . . 56

Appendix 9 – Peer Reviews of the TVA OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

Glossary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58

Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60




                                                                                           TVA OIG Semiannual Report       3
Message from
the Inspector General
I am pleased to present our report for the period October 1, 2013, to March 31,
2014. Mobile technology advancements have changed the way we work.
Because of these advancements, conducting business is no longer constrained
to a physical location or a hard-wired computer. Today, collaboration and
information sharing occur seamlessly anywhere, anytime from your smartphone
or tablet. While this technology can increase operational effectiveness, there
are risks. In this semiannual feature, we focus on the Office of Inspector
General’s (OIG) role in helping the Tennessee Valley Authority (TVA) balance
the benefits and risks of incorporating mobile devices into the business.



In this semiannual period,                    device management,                    Fossil Plant coal ash spill.
our audit, evaluation, and                    (2) transmission network used         Other investigations in this
investigative activities identified           to provide information related        semiannual period resulted in
more than $20 million in funds to             to producing and delivering           five indictments, one pretrial
be put to better use, questioned              power, and (3) natural gas            diversion, and one conviction.
costs, recoveries, savings, and               transaction management
penalties as well as opportunities            software.                           In May 2014, the terms of
for TVA to improve its programs                                                   Chairman William (Bill) Sansom
and operations. Some of the               VV A review of how TVA manages          and Director Barbara Haskew will
highlights include:                          combustible coal dust                end. Although their terms are
                                             that identified significant          expiring, they have graciously
VV Eight preaward reviews that               improvements were needed in          agreed to continue to serve
   identified more than                      the program.                         until new appointments occur or
   $9 million of potential savings                                                until the end of this session of
   opportunities for TVA to use in        VV A review of the non-nuclear          Congress, whichever comes first.
   negotiations of contracts.                employee concerns program            The OIG extends our sincere
                                             which found program                  appreciation to these fine public
VV A follow-up review of TVA’s               effectiveness could be               servants for their contributions
   Financial Trading Program                 improved.                            to TVA over the years and to the
   (FTP) which found the overall                                                  work of our office.
   design of the control structure        VV An investigation that resulted
   was appropriate; however,                 in a court order for an              Director Haskew had the unique
   there were opportunities to               individual to repay victims of a     opportunity to view TVA from
   improve the program.                      fraudulent investment scheme         two perspectives—she worked at
                                             more than $10 million. One           TVA in the 1980s and then was
VV Information Technology                    of the bogus investment              appointed to the TVA Board in
   (IT) audits that identified               opportunities was to support         2010. She served as Chairperson
   opportunities to improve                  the purchase of materials and        for the TVA Board’s People and
   controls surrounding the                  supplies to assist with the          Performance Committee. We
   (1) implementation of mobile              cleanup of TVA’s Kingston            appreciate Director Haskew’s


4   TVA OIG Semiannual Report
Fontana Dam




 service to TVA and her support of   appreciate his dedication to        the other Board members to
 the OIG.                            public service and his support of   make TVA better.
                                     the OIG.
 We also note Chairman Sansom
 has a long record of public         As Director Joe Ritch assumes
 service and was nominated           the role of Chairman of the         Richard W. Moore
                                                                         Inspector General
 to serve on the TVA Board by        TVA Board, I am confident he
 both the Bush and Obama             will continue in the tradition of
 administrations. Chairman           excellence that his predecessor
 Sansom has been kind enough to      has established. He has our
 publicly acknowledge the work of    sincere best wishes as he takes
 the OIG at TVA Board meetings       the helm of TVA, and we look
 and on other occasions. We          forward to working with him and

                                                                             TVA OIG Semiannual Report   5
                            SPECIAL FEATURE
                                TVA OIG SEMIANNUAL REPORT




6   TVA OIG Semiannual Report
Special Feature: balancing mobility with security


Delivering services and information faster and at a lower cost is driving most companies to take advantage
of mobile technologies. Government agencies are no exception. In May 2012, the Digital Government
Strategy was issued by Federal Chief Information Officer Steven VanRoekel to, among other things, promote
accelerated adoption of mobile workforce solutions. As a result, mobile electronic devices, including
smartphones and tablets, are becoming key components of agency strategies to provide employees with
flexibility in accessing agency networks and information from anywhere at any time. These strategies must
also balance the advantages of mobility with the security risks inherent in this rapidly evolving environment.




Like other agencies, TVA is           and (2) provide meaningful and        sending hard-copy documents
looking to take advantage of          cost-beneficial recommendations       through the U.S. Postal Service
mobile technologies to gain           to help TVA reduce risks to           or fax machines. Communication
operational efficiencies and          acceptable levels. As we              relied on hard-wired phone and
cost savings. TVA has initiated       discussed in our September            computer systems. Technology
programs to increase the use of       2012 semiannual report, in            and infrastructure to support the
mobile devices by developing          the area of cyber security, we        portable devices we know today
mobile applications to perform        want to contribute to finding         were in their infancy.
various business functions, and       solutions rather than just finding
by allowing the use of employee-      problems. We have found               As the technology and
owned devices in addition to          through our experience that           infrastructure evolved and
corporate-owned devices, to           working collaboratively with          became more cost effective in
access agency information.            TVA early in the development          the early 2000s, businesses and
With these programs comes             and implementation of these           consumers began acquiring more
the responsibility to ensure          programs to identify risks and        portable devices that would
appropriate security measures are     possible solutions helps TVA          allow them to communicate
implemented to safeguard TVA          implement more efficient and          information faster and better.
information.                          effective programs.                   Today, mobile devices have
                                                                            become ingrained in business
In this article, we explore the       Evolution of Mobile                   and society. The introduction
OIG’s role in helping TVA             Technology                            of iPhone and Android devices in
balance the benefits and risks of     Thirty years ago, business            2007, and later iPads and
incorporating mobile devices into     relationships meant traveling         tablets, have accelerated
the business. While management        to another location and having        this movement and provided
makes the final decision on the       human “face time,” then dealing       methods for instantaneous
proper controls to implement,         with paperwork later. If someone      communication at a relatively
it is incumbent on the OIG to         was out of the office, they           low cost. Documents, videos,
(1) raise TVA’s awareness of the      were effectively out of contact.      and images can be exchanged
risks with mobile technology          Businesses were limited to            instantly, video conferencing can



                                                                                TVA OIG Semiannual Report   7
be accessed from your mobile           sensitive information, the trend      mobility area. In essence, our
device, and collaboration and          puts increased pressure on TVA’s      audit team is “in-flight” with the
information sharing can happen         IT resources to put new controls      project team to review the design
anywhere and anytime. Gartner,         in place to prevent agency            of controls and test the controls
Inc., a leading information            computer network compromise           before implementation. This
technology research company,           from consumer devices, and            close collaboration results in early
predicted that, in 2014,               prevent exposure of TVA’s             identification of control issues
90 percent of organizations will       sensitive information if the device   and results in early resolution
support corporate applications         is lost.                              of issues at a lower cost to the
on devices owned by workers.                                                 agency.
This trend is referred to as the       To further enable the mobility
“consumerization” of information       of TVA’s workforce, TVA initially     Most recently, we implemented
technology.                            implemented a cross-platform,         or applied this philosophy
                                       mobile collaboration solution         in our review of TVA’s MDM
TVA and Mobile                         using containerized technology        deployment. In parallel with
Technology                             for corporate e-mail, calendaring,    the MDM deployment, the
TVA is also moving forward with        contacts, etc. Recently, TVA          OIG conducted an audit which
mobile technology, progressing         procured a comprehensive              included testing of MDM policies
from reimbursing employees for         solution known as Mobile Device       and infrastructure, evaluating
cell phone usage to deploying          Management (MDM), which               existing TVA rules of behavior,
mobile device management               provides better management and        and assessing the risk associated
software aimed at providing            security of mobile devices and        with the MDM tool. During
greater flexibility in mobile device   corporate data, and allows TVA        the audit, the OIG worked
choices. This progression also         to develop applications to help       interactively with TVA to test
potentially creates opportunities      streamline business processes.        configurations and device policies
for asset and cost reductions                                                on a variety of smartphones and
and streamlined business               The OIG’s Role                        tablets. As a result, needed
processes. In June 2012, TVA           Although it is the agency’s           improvements to controls,
was supporting more than               responsibility to identify and        policies, and configuration were
2,500 Blackberries, 400 iPhones,       mitigate risks, the OIG can play      identified early in the program’s
120 Android phones, 750 iPads,         an integral role by assessing         implementation. The OIG and
11 Android tablets, and                the identified risks and planned      TVA will continue to collaborate
240 mobile handheld devices.           mitigations as well as raising the    as improvements are made to this
                                       awareness of unrecognized risks       program.
Increasing utilization of              and providing possible solutions.
employee-owned and agency-             We have found the OIG can             Success in this type of review is
owned mobile devices also brings       have a great impact by working        dependent on having the right
increased risk to the agency in        collaboratively with the agency to    relationships with agency staff.
terms of cyber security, network       assess the sufficiency of controls    In our case, both sides recognize
access, network capacity, and          early in the development and          our mutual purpose is to reduce
data loss. While everyone at TVA       implementation of programs like       the risks to TVA. This requires
is responsible for securing TVA’s      those being implemented in the        creating a safe environment



8   TVA OIG Semiannual Report
where respectful, open, and          required to assess the controls     underlying data as part of
honest communication can             and risks of TVA’s mobility         an overall risk management
happen between the auditors          program.                            framework.
and the agency staff. When done
well, auditors and agency staff      Conclusion                          Collaborative efforts between
can exchange ideas, discuss areas    The mobility evolution is           TVA management and the OIG
of disagreement, and work to         continuing at a rapid pace. TVA     help identify security challenges
find a better solution. Successful   continues to refine its mobility    in the mobile environment and
collaboration is also dependent      program to make mobile devices      integrate solutions as these
on how credible we are viewed in     as prevalent as any other end-      devices become integral for
the agency’s eyes. Credibility is    user computing device. In           TVA employees to perform their
obtained over time and through       the fast changing world of          jobs. The OIG will continue
experience with each other as        smartphones and tablets, risks      to identify opportunities to
well as by staying up-to-date        change with each new device         collaborate with TVA to make
on evolving technology and           being introduced. From an           TVA’s mobility program best-in-
associated risks. This requires      information security perspective,   class for reducing device and
the OIG to invest in the software,   devices must be configured          development costs without
hardware components, and             and managed with information        reducing information security.
specialized training necessary       assurance controls commensurate
to develop the essential skills      with the sensitivity of the



                                                                             TVA OIG Semiannual Report   9
            NOTEWORTHY UNDERTAKINGS




10   TVA OIG Semiannual Report
NOTEWORTHY UNDERTAKINGS
On Thursday, February 13, 2014, Senior Special Agent Meagan Sands was honored by the U.S. Attorney’s
Office, Middle District of Tennessee, for her exemplary performance as a law enforcement agent. Sands was
among 32 award recipients who “distinguished themselves during the previous year by their extraordinary
performance in a particular case,” according to the awards flyer. “These men and women have not only
done extraordinary enforcement and investigative work but have gone the extra mile to work with attorneys
and staff of the U.S. Attorney’s Office to assure a just result in significant prosecutions of federal criminal
defendants in the Middle District of Tennessee.”




U.S. Attorney David Rivera was        a Ponzi scheme presented as            a utility company president
quoted as saying, “Those being        multiple investment opportunities      embroiled in a mail and wire
honored here today represent a        that bilked more than                  fraud scheme including his
community of law enforcement          50 investors out of $16 million        receipt of bribes and kickbacks.
officers and agents who have          and another case involving
dedicated their lives to the
protection of the public at any
time and place that the peace is
threatened. The life blood of law
enforcement is the officer on the
beat and the agent in the field.
Without their efforts, no system
of criminal justice can succeed.”

TVA OIG Assistant Inspector
General for Investigations Paul
Houston bolstered Rivera’s
statement adding, “The United
States Attorney’s Office briefed
not one, but two cases Meagan
worked on along with former
OIG Special Agent Chris Allen.
Having one case briefed by the
U.S. Attorney’s Office in this
ceremony is impressive enough,
but two is truly extraordinary.”
                                          Senior Special Agent Meagan Sands Receives Award from U.S.
Sands and Allen were recognized           Attorney’s Office for Her Work in Two Notable Cases
for their work on a case
involving a Robertson County
Commissioner who spearheaded

                                                                                 TVA OIG Semiannual Report   11
                     EXECUTIVE OVERVIEW
                               TVA OIG Semiannual report




12 TVA OIG Semiannual Report
Executive Overview
In this semiannual report, our theme reflects the progressing challenge of keeping data secure in an increasingly
mobile environment. Our mission to make TVA better includes supporting TVA in safeguarding its information
on a widely dispersed mobile platform comprised of smartphones, tablets, laptops, and other mobile devices.
In our feature article, we highlighted our work to help TVA bolster security of its growing mobile device
programs. In addition to this work, the reviews highlighted in this report demonstrate how our work continues to
make TVA better.




AUDITS                                 We also completed three               overbillings of $635,465. The
                                       compliance audits of contracts        Contract Audits section begins
During this reporting period,          with expenditures totaling            on page 23 of this report.
the TVA OIG audit organization         $328 million related to (1) the
completed 20 audit, review,            coal combustion by-products           Corporate Governance
and agreed-upon procedures             spill at TVA’s Kingston Fossil        and Finance Audits
engagements. This work                 Plant; (2) the subcontracting         With a focus on TVA’s regulatory
identified $635,465 in questioned      process utilized by a contractor      activities and compliance with
costs for TVA to recover and           for services associated with TVA’s    applicable laws and regulations
approximately $9.6 million in          combustion turbine projects and       as well as financial reporting, we
funds that could put to better         various equipment for selective       completed four reviews.
use. We also identified several        catalytic reduction and dry flue      We contracted with Mercatus
opportunities for TVA to improve       gas desulfurization precipitators;    Energy Advisors (Mercatus) to
the effectiveness and efficiency       and (3) geotechnical services.        conduct a follow-up audit of
of its programs and operations.        These audits identified potential     TVA’s FTP which found while the


Contract Audits
To support TVA management in
                                                STATISTICAL HIGHLIGHTS
                                                         October 1, 2013 - March 31, 2014
negotiating procurement actions,
we completed eight preaward           Audit Reports Issued                               20
reviews of cost proposals             Evaluations Completed                              3
submitted by companies                Questioned Costs                                   $635,465
proposing to provide (1) TVA
                                      Questioned Costs Agreed to by TVA                  $308,089
Valley-wide engineering services,
                                      Questioned Costs Recovered by TVA                  $164,025
(2) hydro modernization and unit
                                      Funds to Be Put to Better Use                      $9,584,250
rehabilitation services, and
(3) construction/modification         Savings Realized by TVA                            $374,900
services for TVA’s transmission/      Investigations Opened                              112
power supply program. Our             Investigations Closed                              148
reviews identified $9.6 million of    Recoveries/Fines/Penalties                         $10,875,742
potential savings opportunities       Criminal Actions                                   7
for TVA to negotiate.                 Administrative Actions (No. of Subjects)           22


                                                                                 TVA OIG Semiannual Report    13
overall design of the FTP control     Operational Audits                    and programs with poor health
structure was appropriate, there      During this semiannual reporting      ratings. We found while the
were opportunities to improve         period, Operational Audits            Non-Nuclear Employee Concerns
the program. We also completed        evaluated TVA’s efforts to identify   Program (ECP) has improved in
a mandated review of TVA’s            and mitigate risks associated with    addressing concerns in a timely
compliance with the Improper          equipment in Coal Operations          manner, the effectiveness of the
Payments Information Act (IPIA)       and in Nuclear Operations and         program could be improved.
of 2002, as amended.                  assessed TVA’s management             We also found that critical spare
                                      of combustible coal dust.             parts could be managed more
Finally, in addition to our audit     Our reviews of equipment in           effectively. Lastly, we found that
work, we (1) applied agreed-          Coal Operations and Nuclear           TVA is taking action to address
upon procedures related to TVA’s      Operations found overall risk         nuclear systems, components,
2013 Winning Performance (WP)         mitigation plans and actions          and programs with poor health
payout and (2) monitored the          were reasonable. We identified        ratings. The Evaluations section
audit of TVA’s fiscal year (FY)       opportunities to improve the          begins on page 32 of this report.
2013 financial statements by an       management of combustible coal
external auditor. The Corporate       dust. The Operational Audits          INVESTIGATIONS
Governance and Finance Audits         section begins on page 28 of this
section begins on page 24 of this     report.                               This reporting period, our
report.                                                                     investigations resulted in
                                      EVALUATIONS                           five indictments, one pretrial
IT Audits                                                                   diversion, and one conviction, as
During this semiannual period,        During the reporting period,          well as restitution and recoveries
we completed three audits in          Evaluations completed three           to TVA and other persons or
the IT environment pertaining         reviews related to (1) TVA’s          entities exceeding $10 million.
to TVA’s (1) controls over the        non-nuclear employee concerns         We opened 112 cases and closed
implementation of an MDM              resolution; (2) critical spare        148. The Investigations section
software suite; (2) controls over     parts for nuclear, coal, and gas      begins on page 36 of this report.
a transmission network used to        units; and (3) actions to address
provide information related to        nuclear systems, components,
producing and delivering power;
and (3) application controls for
TVA’s natural gas transaction
management software. We
identified areas for improvement
in all three reviews. The IT Audits
section begins on page 26 of this
report.




 14   TVA OIG Semiannual Report
Bull Run Fossil Plant




                        TVA OIG Semiannual Report   15
                        TVA OIG ORGANIZATION
                                          TVA OIG Semiannual report




                    Charles A. Kandt                      Richard W. Moore
                    Counselor to the IG                     Inspector General


                                                            Ben R. Wagner
                                                             Deputy Inspector
                                                                General


W. David Winstead     Jill M. Matthews                               Robert E. Martin                                  Paul B. Houston
                       Assistant Inspector                                                                            Assistant Inspector
   Legal Counsel                                       Assistant Inspector General, Audits & Evaluations
                     General, Administration                                                                         General, Investigations


                         Terri Beatty          Lisa H. Hammer       David P. Wheeler
                                                                       Deputy Assistant      Greg R. Stinson         Nancy J. Holloway
                    Manager, Organizational        Director,
                                                                      Inspector General,     Director, Evaluations   Special Agent In Charge
                           Health              Operational Audits
                                                                            Audits


                     Kathy H. Kirkham                                                                                  James E. Hunter
                                                                     Phyllis R. Bryan
                        Manager, Human
                                                                      Director, IT Audits                            Special Agent In Charge
                          Resources


                                                                    Curtis C. Hudson
                                                                          Director,
                                                                       Contract Audits


                                                                          Rick C.
                                                                        Underwood
                                                                     Director, Corporate
                                                                       Governance &
                                                                       Finance Audits




 16 TVA OIG Semiannual Report
Organization
Since 1985, the OIG has worked to help TVA become better which is the OIG mission. Through our audits,
evaluations, and investigations, we provide TVA management, the TVA Board, and Congress with an
independent look at the economy, efficiency, and effectiveness of TVA programs and help prevent and detect
fraud, waste, and abuse. Over the years, the OIG has helped save or recover millions and recommended
numerous program improvements. We credit our success to the efforts of our hardworking and talented staff
and the professional responsiveness of TVA management to our recommendations.




TVA OIG Office                       offices throughout the Tennessee     Plant in Hollywood, Alabama;
Locations                            Valley. We are headquartered in      and Sequoyah Nuclear Plant
The OIG has a work philosophy        TVA’s East Tower, opposite TVA’s     in Soddy-Daisy, Tennessee.
of being in the right place at       corporate offices, overlooking       Staff work in these locations as
the right time to do the best        downtown Knoxville.                  needed.
work possible. We support that
philosophy by encouraging our        The OIG has field offices in the     As of March 31, 2014, the OIG
OIG employees to work where          Edney Building in Chattanooga,       had a total staff of 105. The
they can be most effective           Tennessee, where the Evaluations     number of personnel located
whether that is in one of our        unit, members of the Corporate       at each staffed office is:
physical offices, in the field,      Governance and Finance               Knoxville-81, Chattanooga-18,
or in one of our virtual offices     team, and several special            Nashville-3, and Huntsville-3.
that enable our employees to         agents are located, as well as
telework from home or while          in Nashville, Tennessee, and         ADMINISTRATION
traveling.                           Huntsville, Alabama. We also
                                     have office locations at Watts       The Administration team works
The OIG has strategically located    Bar Nuclear Plant in Spring City,    closely with the Inspector General
its offices near all major TVA       Tennessee; Bellefonte Nuclear        (IG), Deputy IG, and Assistant




  Wilbur Dam




                                                                              TVA OIG Semiannual Report      17
IGs to address the day-to-day        stakeholders. Based upon the           public and congressional interest),
operations of the OIG and to         results of these engagements,          and the likelihood it will result in
develop policies and procedures      the Audits and Evaluations             recommendations for cost savings
designed to drive and enhance        teams make recommendations             or process improvements. The
productivity in achieving office     to enhance the effectiveness and       result of the OIG Audits and
goals. Responsibilities include      efficiency of TVA programs and         Evaluations planning process is a
personnel administration, budget     operations.                            focus on those issues of highest
and financial management,                                                   impact and risk to TVA.
purchasing and contract              The teams use an impact-
services, facilities coordination,   and risk-based approach to             The Audits team, primarily
training and event planning,         develop an annual work plan. In        based in Knoxville, generates
communications facilitation, and     developing the plan, the OIG           and oversees comprehensive
IT support.                          considers TVA’s strategic plans,       financial and performance
                                     major management challenges,           audits of TVA programs and
AUDITS AND                           TVA’s enterprise risk management       operations, providing an inclusive
EVALUATIONS                          process, and other input from          picture of TVA’s overall fiscal and
                                     TVA management. This planning          operational health. This team is
The Audits and Evaluations           model also evaluates each              made up of four departments—
teams perform a wide variety         potential engagement from the          Contract Audits, Corporate
of engagements designed              standpoint of materiality (i.e.,       Governance and Finance Audits,
to promote positive change           costs or value of assets), potential   IT Audits, and Operational Audits.
and provide assurance to TVA         impact, sensitivity (including




                                                                                                       Wilson Dam




 18   TVA OIG Semiannual Report
                    Types of Audit & Evaluation Issues

                       Corporate Governance and                                  Operational Audits
                            Finance Audits                              •	 Operational Inefficiency
                      •	 Internal Control Deficiencies                  •	 Not Achieving Intended Results
                      •	 Program Inefficiencies/Ineffectiveness         •	 Inferior Performance
                      •	 Policy Noncompliance                           •	 Legal/Regulatory Noncompliance
                      •	 Fraud                                          •	 Fraud



                IT Audits                                     Evaluations                               Contract Audits
    •	 Internal Control Deficiencies               •	 Internal Control Deficiencies               •	 Inflated Proposals
    •	 Policy Noncompliance                        •	 Operational Inefficiency                    •	 Contract Overpayments
    •	 Integrity of Data and Assets                •	 Policy Noncompliance                        •	 Inferior Performance
    •	 Fraud                                       •	 Fraud                                       •	 Fraud




VV Contract Audits has lead                   VV IT Audits has lead                           The Evaluations team seeks to
   responsibility for contract                   responsibility for audits                    ensure that program objectives
   compliance and preaward                       relating to the security of TVA’s            and operational functions
   audits. In addition, this team                IT infrastructure, application               are achieved effectively and
   performs reviews of TVA                       controls, and general controls               efficiently. It performs both
   contracting processes and                     associated with TVA systems.                 comprehensive reviews and
   provides claims assistance as                 This team also performs                      more limited scope policy and
   well as litigation support.                   operational reviews of the                   program reviews. In accordance
                                                 effectiveness of IT-related                  with the Quality Standards for
VV Corporate Governance and                      functions.                                   Inspection and Evaluation, the
   Finance Audits has lead                                                                    objectives of the unit include
   responsibility for oversight of            VV Operational Audits focuses                   providing a source of factual and
   TVA’s (1) financial statement                 on risk- and impact-driven                   analytical information, monitoring
   audit and related services                    operational audit work. The                  compliance, measuring
   performed by TVA’s external                   team performs audits of                      performance, assessing the
   auditor and (2) regulatory                    operational effectiveness                    efficiency and effectiveness of
   activities. This team also                    and efficiency as well as TVA                operations, and conducting
   conducts operational reviews                  compliance with laws and                     inquiries into allegations of
   to assess the results as well as              regulations.                                 fraud, waste, abuse, and
   the economy and efficiency of                                                              mismanagement.
   TVA’s financial programs.




                                                                                                      TVA OIG Semiannual Report   19
Audit and evaluation issues vary               agents maintain liaisons with                LEGAL
depending on the objectives                    federal and state prosecutors
of the project. The graphic on                 and notify the U.S. Department               The OIG Legal Counsel team
the previous page shows some                   of Justice whenever the OIG has              monitors existing and proposed
representative examples of issues              reason to believe there has been             legislation and regulations
our audit and evaluation projects              a violation of federal criminal law.         that relate to the mandate,
are commonly designed to                       The special agents partner with              operations, and programs of the
identify.                                      other investigative agencies and             OIG and TVA. Additionally, this
                                               organizations on special projects            team provides legal advice as
INVESTIGATIONS                                 and assignments, including                   needed for administrative, audit,
                                               interagency law enforcement                  evaluation, and investigative
The Investigations team uncovers               task forces on terrorism, the                projects.
activity related to fraud, waste,              environment, health care, and
and abuse in TVA programs and                  public corruption, as well as
operations. This team performs                 securities fraud. The graphic
its investigations in accordance               shows the major categories of
with the Quality Standards for                 investigations.
Investigations. The special


                   Major Categories of Investigations
                                                                        Theft of Government
                                 Contract Fraud
                                                                        Property and Services
                               Defrauding TVA through its
                          procurement of goods and services            Theft of TVA property and schemes
                            including fraud schemes such as           to defraud . . . designed to deprive
                           misrepresenting costs, overbilling            individuals, the people, or the
                          charges, product substitution, and          government of intangible rights, such
                           falsification of work certifications.        as the right to have public officials
                                                                           perform their duties honestly.


       Environmental Crime                            Health Care Fraud                      Illegal Hacking Into TVA
    Violations of environmental criminal          Intentional misrepresentation of               Computer Systems
  law pertaining to the Tennessee River            health care services, expenses,               Accessing a TVA computer
   system and its watershed, along with           billings, needs, or coverage that               without authorization or
  any violations relating to TVA land and        results in unauthorized payments               exceeding authorized access.
                  facilities.                              or other benefits.




           Workers’                                Employee Misconduct                              Special Projects
       Compensation Fraud                             Misuse of TVA furnished                   Management requests, data
       Employee fraud, medical fraud,            equipment, travel voucher fraud,              mining and predictive analysis,
        premium fraud, and employer              and a multitude of miscellaneous              congressional and TVA Board
      fraud, most often a false claim of            matters of abuse, conflict of                 requests, and fraud risk
         disability to receive benefits.         interest, and alleged violations of                   assessments.
                                                          code of conduct.




 20     TVA OIG Semiannual Report
Watts Bar Nuclear Plant




                          TVA OIG Semiannual Report   21
                REPRESENTATIVE AUDITS
                               TVA OIG Semiannual report




22 TVA OIG Semiannual Report
Summary of
REPRESENTATIVE AUDITS
During this reporting period, the TVA OIG Audit organization completed 20 audit, review, and agreed-
upon procedures engagements. This work identified $635,465 in questioned costs for TVA to recover
and approximately $9.6 million in funds the company could put to better use. We also identified several
opportunities for TVA to improve the effectiveness and efficiency of its programs and operations.




Contract Audits                       potential overbillings of                delivery, installation, and
                                      $635,465. Highlights of our              construction management
Preaward Contract                     completed compliance audits              services for TVA’s combined-
Reviews                               follow.                                  cycle combustion turbine
To support TVA management in                                                   or simple-cycle combustion
negotiating procurement actions,      VV We audited $66.4 million in           turbine projects and various
we completed eight preaward              costs billed by a contractor          equipment for selective
reviews of cost proposals                to unload and dispose at              catalytic reduction and dry
submitted by companies                   least four million tons of coal       flue gas desulfurization
proposing to provide (1) TVA             combustion by-products from           precipitators.
Valley-wide engineering services,        the 2008 spill at TVA’s Kingston
(2) hydro modernization and              Fossil Plant. We determined        Our audit included subcontracts
unit rehabilitation services, and        the contractor overbilled TVA      and related change orders for
(3) construction/modification            $366,401 which included            $256.3 million in subcontractor
services for TVA’s transmission/         (1) $225,832 in overbilled         costs the contractor billed to TVA
power supply program. Our                tonnage costs, (2) $122,921 in     from December 14, 2007, to
reviews identified $9.6 million of       overbilled leachate (leachate      June 27, 2012. We determined
potential savings opportunities          is liquid which drains from        the contractor (1) did not
for TVA to negotiate. The savings        coal combustion by-products)       obtain TVA approval for
opportunities were primarily             costs, (3) an estimated $11,206    some subcontracts and
related to overstated indirect           in overbilled standby costs,       (2) circumvented requirements
cost recovery rates and excessive        and (4) $6,442 in overbilled       for TVA approval and overbilled
profit rates.                            structural adequacy costs.         TVA $168,623 in markup costs
                                                                            applied to costs for services and
Contract Compliance                   VV We performed an audit of           equipment provided by TVA
Reviews                                  the subcontracting process         under subcontract agreements.
During this semiannual period,           utilized by a contractor under
we completed three compliance            two contracts. Under the           VV We audited $5.3 million in
audits of contracts with                 contracts, the contractor             costs billed by a contractor
expenditures totaling                    was to provide design,                for a broad range of
$328 million and identified              engineering, procurement,             geotechnical services to




                                                                                TVA OIG Semiannual Report     23
                                                                                                Pickwick Dam




     support engineering design        procedures related to TVA’s 2013   determined the overall design of
     for structures, earthwork, and    WP payout; (3) monitored the       TVA’s FTP control structure was
     environmental projects. We        audit of TVA’s FY 2013 financial   appropriate, we also identified
     determined the contractor         statements by an external          several areas where management
     overbilled TVA an estimated       auditor; and (4) completed         oversight needed improvement
     $100,441. The overbilling         a mandated review of TVA’s         to validate the usefulness and
     included an estimated             compliance with IPIA of 2002, as   effectiveness of the program, as
     (1) $63,196 in labor costs,       amended.                           well as ensure TVA stakeholders’
     (2) $14,693 in transportation                                        understanding of the program.
     and subsistence costs,            Follow-up Audit of
     (3) $13,243 in unit rate costs,   TVA’s FTP                          As a follow up to our 2012 review,
     (4) $8,709 in miscellaneous       During 2012, we completed an       we contracted with Mercatus to
     costs, and (5) $600 in            audit of TVA’s FTP. The program,   (1) provide a third-party review
     unclassified costs.               which started in 2003, was         of the final actions taken by TVA
                                       designed to hedge or otherwise     management with regard to the
Corporate                              limit economic risk associated     recommendations from our initial
Governance and                         with the price of commodities      audit, and (2) determine if TVA’s
Finance Audits                         recovered in TVA’s fuel cost       financial gas hedging program
                                       adjustment. Since the hedging      was designed and functioning
During this semiannual period,
                                       of natural gas comprised the       in a manner to achieve program
Corporate Governance and
                                       majority of the hedging program,   objectives in the most efficient
Finance Audits (1) completed a
                                       we generally limited our scope     and effective manner.
follow-up audit of TVA’s FTP,
                                       to the financial gas hedging
(2) applied agreed-upon
                                       program. Although our audit

24     TVA OIG Semiannual Report
In summary, Mercatus agreed              interest in this aspect of the    VV Conduct stress testing on a
(1) the overall design of TVA’s FTP      FTP.                                 routine basis.
control structure was appropriate
and (2) with the recommendations      VV Redesign hedging                  VV Ensure actions required by
in our initial report. However,          strategies to better match           governance documents are
Mercatus identified several              the characteristics of the           adhered to or if language in
additional areas regarding the           exposures being hedged.              the documents is inaccurate,
design and function of the                                                    revise the documents to reflect
program that required attention.      VV Improve and consolidate              actual practices.
To address these areas, Mercatus         performance reports.
recommended TVA:                                                           VV Conduct a proper cost/
                                      VV Cease using “Value at Risk”          benefit analysis of the FTP and
VV Determine risk tolerance and          as a primary risk metric and         compare all-in hedged cost of
   proper size of the FTP.               replace it with an at-risk type      fuel to the cost of fuel without
                                         of metric(s) that includes           hedging (market price).
VV Analyze volumetric risk on            financial natural gas hedges
   a regular, consistent basis           and the physical exposures        VV Properly analyze and manage
   and communicate with                  being hedged.                        all of TVA’s energy commodity
   stakeholders having a vested                                               exposure.




Browns Ferry Nuclear Plant




                                                                              TVA OIG Semiannual Report     25
TVA management                       VV The incentivized TVA             with the IPIA, as amended.
generally agreed with the               Corporate Balanced Scorecard     In summary, we found TVA
recommendations and provided            measures agreed with the         was in compliance with IPIA
a plan of action to address the         underlying support.              requirements that were
recommendations.                                                         applicable to TVA.
                                     VV The FY 2013 WP payout
Agreed-Upon Procedures                  percentages provided by          In our opinion, TVA was only
Applied to 2013 WP                      the Metrics and Performance      required to comply with the
Payouts                                 Analysis organization on         IPIA requirement to conduct a
TVA’s WP Incentive Plan is a            October 21, 2013, were           program specific risk assessment.
performance management                  correctly calculated.            TVA performed a risk assessment
program designed to promote                                              for FY 2013 and determined the
teamwork, focus on continued         Oversight of the FY 2013            primary programs susceptible
high performance, and motivate       Financial Statement                 to improper payments were its
and reward employees for             Audit                               Supply Chain programs. TVA
achieving strategic objectives and   TVA contracted with the             calculated the total amount of
critical success factors. The WP     independent public accounting       payments subject to review as
program is based on the principle    firm of Ernst & Young LLP to        more than $8.7 billion. IPIA
that operational improvements,       audit TVA’s balance sheet as of     defines significant improper
reduced costs, and improved          September 30, 2013, and the         payments as $10 million of all
revenues can be achieved by          related statements of income,       program activity payments and
applying management focus and        changes in proprietary capital,     1.5 percent of program outlays.
offering monetary incentives.        and cash flows for the year. This   TVA’s improper payments totaled
                                     also included the audit of TVA’s    more than $15 million and
We applied four agreed-              internal control over financial     0.17 percent of program outlays.
upon procedures requested            reporting as of fiscal year-        Accordingly, TVA’s improper
solely to assist management in       end. The firm also reviewed         payments fell below the IPIA
determining the validity of the      TVA’s FY 2013 interim financial     threshold amounts. Finally,
WP payout awards for the year        information filed on Form 10-Q      although TVA was not required
ended September 30, 2013. We         with the Securities and Exchange    to report information related to
found:                               Commission. The contract            recapture efforts, TVA voluntarily
                                     required the work be performed      stated in their FY 2013 IPIA
VV The FY 2013 WP goals were         in accordance with Government       letter that they had recovered
   properly approved.                Auditing Standards. Our             all but $88,151 of the improper
                                     monitoring of this work disclosed   payments identified.
VV The measures on the Strategic     no instances where the firm
   Business Unit and Business        did not comply, in all material     IT Audits
   Unit scorecards agreed with       respects, with Government
   the respective supporting         Auditing Standards.                 During this semiannual
   documentation.                                                        period, we completed the
                                     TVA FY 2013 Compliance              following three audits in the IT
                                     with the IPIA                       environment: (1) controls over
                                     The OIG performed an audit of       the implementation of MDM
                                     TVA’s compliance for FY 2013        software suite; (2) controls over

 26   TVA OIG Semiannual Report
a transmission network used to      was followed and server and           of the MDM client had control
provide information related to      application controls were             weaknesses which we classified as
producing and delivering power;     considered.                           high risk.
and (3) application controls for
TVA’s natural gas transaction       In summary, we determined TVA’s       We recommended TVA
management software.                (1) project management controls       management (1) improve
                                    for the MDM implementation            project management controls
Controls Related to TVA’s           could be improved; (2) current        by completing project activities
MDM Implementation                  policies regarding Bring Your         as required by TVA policies
During 2013, TVA’s IT               Own Device (BYOD) and mobile          and procedures, (2) review and
organization decided to expand      devices (a) contained provisions      update TVA’s BYOD and mobile
the use of mobile devices           that were not applicable or not       device policies and procedures
within TVA and, subsequently,       enforceable and (b) were missing      with applicable provisions, and
purchased an MDM application        key provisions, such as controlling   (3) address control weaknesses
suite. Due to the risk associated   how data is protected on the          we identified in our risk
with this new technology, the       device, connectivity policies,        assessment. TVA management
OIG performed an audit of           application control policies,         generally agreed with our
the implementation project          and TVA access to personally-         recommendations and is taking
to determine whether TVA’s          owned and TVA-owned devices;          corrective action to address the
systems development process         and (3) planned configuration         issues.


                                                                             TVA OIG Semiannual Report   27
Transmission Network                 and, where possible, implement       resolution; (2) reviews of assigned
Controls                             best practices. TVA management       security groups were not being
TVA implemented a transmission       generally agreed with our            performed; and (3) relevant TVA
network for the sole purpose         recommendations and is taking        policies and procedures were not
of transporting data related to      actions to address them.             timely updated.
producing and delivering power.
The OIG performed this audit to      Controls Over TVA’s                  We recommended TVA
gain a better understanding of       Natural Gas Transaction              (1) develop a new procedure for
the network and its architecture     Application                          the periodic review of the open
and evaluate any risks associated    To support TVA’s current natural     change tickets to validate tickets
with the network through either      gas-fired plants, TVA uses           past their planned close dates
its design or the information        a transaction management             are reviewed and appropriate
being transmitted on it.             application for tracking             action is taken; (2) semiannually
                                     purchases, sales, transportation,    review the security groups that
In summary, we found the             and ultimate use of natural          are assigned to each user as
network had been appropriately       gas in TVA’s generation assets.      part of the quarterly review and
configured to block access to        Annual transactions in the           update the security as required;
and from the Internet and was        physical natural gas area on the     and (3) ensure relevant policies
being used appropriately at the      purchase side are approaching        and procedures are updated,
time to only collect operation       $500 million, with transportation    per their defined cadence, as
data. However, we determined         and storage charges that are         well as aligned with TVA’s risk
(1) TVA device configuration         estimated to amount to an            management framework. TVA
requirements were not followed;      additional $20 million. With the     management agreed with our
(2) password management              current trend in generation, TVA     recommendations and is taking
practices could be improved;         expects these numbers to grow        actions to address them.
(3) network monitoring was not       with the addition of new plants
being performed; and                 and installation of new units at     Operational
(4) firewall rules and               existing plants.                     Audits
configurations could be
strengthened. We recommended         The OIG performed this audit to      During this semiannual reporting
TVA (1) modify configuration         determine the adequacy of the        period, Operational Audits
management practices so that         application’s (1) data processing    assessed TVA’s management
systems are hardened, per            and application controls to ensure   of combustible coal dust and
best practices, and reviewed         data integrity and reliability and   evaluated TVA’s efforts to identify
on a periodic basis; (2) review      (2) logical security controls to     and mitigate risks associated with
and update current password          ensure only authorized access to     equipment in Nuclear Operations
management practices to ensure       system resources and protection      and in Coal Operations.
compliance with all applicable       of sensitive information. While
policies and practices;              we found TVA had adequate
(3) implement network                data processing and application
monitoring; and (4) review current   controls, we found (1) change
firewall rules and configuration     tickets were not tracked to ensure



 28   TVA OIG Semiannual Report
TVA’s Management of                    that could jeopardize property,   We evaluated the adequacy of
Combustible Coal Dust                  business operations, and life     actions taken by TVA to mitigate
Combustible dust contains              safety. TVA’s Coal and Gas        combustible coal dust risk. In
fine particles that present            Operations is responsible for     doing so, we reviewed policies,
an explosion hazard when               managing combustible coal dust.   procedures, and regulations
suspended in air under certain                                           related to combustible coal dust,
conditions. Combustible coal           Although the probability          performed walk-downs at three
dust presents a real and serious       of occurrence for coal dust       of TVA’s coal plants to observe
threat to utility generating           explosions was rated by TVA in    coal dust conditions, reviewed
facilities and personnel safety.       the Enterprise Risk Management    various documents and internal
Coal handling and fueling              (ERM) risk map as unlikely, the   assessments, and interviewed
operations are inherently dusty,       potential consequences of         TVA personnel. In summary,
requiring the highest standard         an explosion could be severe      we found that despite some
of housekeeping, equipment             and result in the disruption      improvements in combustible
tightness, and electrical integrity.   of generating capacity, costly    dust management, actions to
Failure to establish and maintain      cleanup and repairs, and even     date have been inadequate
such standards sets the stage for      loss of life.                     to improve deteriorating
a potential catastrophic event                                           equipment conditions, address




                                                                            TVA OIG Semiannual Report   29
housekeeping challenges, and        VV Tools for monitoring dust         As required by the ERM policy,
provide appropriate monitoring         conditions, including site        TVA’s Nuclear Power Group
of combustible dust conditions at      dust management plans,            (NPG) identified several risks that
TVA coal plants. Specifically:         quarterly site assessments,       could prevent the organization
                                       monthly housekeeping              from achieving its business
VV We observed, during                 reports, and sampling ash         objectives. It then developed
   walk-downs at three coal            for combustibility, were not      mitigation plans for those risks
   generation plants, coal dust        consistently used.                with ineffective mitigation. One
   accumulations in many of the                                          such risk identified by NPG was
   coal handling areas that were    Based on these findings, we          long-term equipment reliability,
   above the Occupational Safety    made recommendations to              which the organization defined as
   and Health Administration’s      TVA management to improve            failures of critical equipment that
   allowable 1/32 inch standard.    the process. TVA management          could cause (1) safety concerns
   TVA also self-identified coal    generally agreed with our            to the public and personnel,
   dust accumulations above the     findings and recommendations         (2) lost production/revenue,
   allowable standard in many       and has taken corrective action to   and (3) financial concern. The
   of the coal handling areas       address these issues.                risk was included in TVA’s Asset
   throughout the coal fleet.                                            Performance and Operations
                                    Long-Term Equipment                  enterprise risk category, which
VV Site assessment reports          Reliability Risk – Nuclear           focused on assets performing
   performed by Yard Systems        In July 2010, TVA signed into        reliably and constantly as
   engineers indicated some         effect an ERM policy that            required by the power supply
   conditions improved between      provides requirements and            plan.
   2010 and 2012. While some        guidance on risk management
   equipment deficiencies were      activities within TVA. The policy    We assessed whether risk
   being addressed, and there       states the purpose of ERM at         mitigation plans and actions
   were several programmatic        TVA is to protect the value          were established and properly
   practices in progress that       of the enterprise and realize        designed to achieve the desired
   were expected to improve         opportunities for stakeholders by    results and were operating as
   conditions over time,            promoting efficient and effective    intended. We determined the
   equipment had deteriorated       management of risk across TVA.       identified mitigation plans were
   faster than funding had          The policy also states strategic     adequately designed to address
   been available for repairs or    business units within TVA are        this risk and, based on NPG
   replacements. Deficiencies       responsible for managing risks       actions taken, were mitigating risk
   resulting from inadequate        within their business operations     as intended.
   equipment maintenance            and should identify and assess
   contributed to the increased     risks associated with achieving      Asset Performance
   presence of combustible coal     their business objectives and        Vulnerability
   dust and coal accumulations      develop risk management plans        Risk – Equipment
   within the coal handling         that mitigate the probability and    As required by the July 2010
   system.                          consequence of risk based on the     ERM policy, CO identified several
                                    TVA ERM guidelines.                  risks associated with achieving its
                                                                         business objective and developed
                                                                         mitigation plans for those risks.

 30   TVA OIG Semiannual Report
  These risks and mitigation plans    on assets performing reliably and   opinion, mitigation plans and
  are captured on risk maps. One      constantly as required by the       actions that consider the use
  such risk identified by CO is       power supply plan.                  of assessment tools, replacing
  asset performance vulnerability                                         components during planned
  which the organization defined      The OIG reviewed CO’s 4th           outages, development and
  as: (1) asset performance risks     quarter FY 2012 and 2nd and         implementation of projects and
  affecting CO’s ability to be        4th quarters FY 2013 enterprise     programs to avoid consequences,
  available to provide reliable       risk maps for asset performance     and reclassification of
  generation when called upon to      vulnerability to assess whether     components to capital from
  meet TVA system demands and         risk mitigation plans and actions   operations and maintenance
  (2) unit availability risk driven   were established and properly       to increase investment in long-
  by equipment failure-related        designed to manage risks. We        term improvements reasonably
  forced outage or maintenance        determined the 4th quarter          address the risk of asset
  outage events and planned           FY 2013 mitigation plans            performance vulnerability in CO.
  outage extension of significant     and actions were adequately         We also identified an opportunity
  duration. The risk is included      designed to manage the              to improve CO’s risk mitigation
  in TVA’s asset performance          risks. Although the risk rating     documentation which was
  and operations enterprise risk      and trend had increased             addressed during our audit.
  category. That category focuses     from two years ago, in our




Allen Fossil Plant




                                                                             TVA OIG Semiannual Report   31
REPRESENTATIVE EVALUATIONS
       TVA OIG Semiannual report
Summary of
REPRESENTATIVE EVALUATIONS
During this semiannual period, Evaluations completed three reviews, including one of TVA’s non-nuclear
employee concerns resolution program. In addition, the team completed reviews of critical spare parts for
nuclear, coal, and gas units and actions to address nuclear systems, components, and programs with poor
health ratings. More information on each of the reviews can be found below.




TVA’s Non-Nuclear                     Non-Nuclear ECP did not achieve       were not adequately addressed,
Employee Concerns                     its FY 2012 timeliness goal of        and 34 percent reported feeling
Resolution Program                    90 percent of concerns addressed      pressure or repercussions from
Due to the importance of the          in less than 30 days, at the time     management or team members
Non-Nuclear ECP to the TVA            of our review, it was achieving       as a result of raising concerns
culture and environment, we           its FY 2013 goal which was to         through the program.
initiated a review to determine       resolve 75 percent of concerns
whether the program was               within 45 days. Of the                We recommended TVA
addressing employee concerns          73 concerns submitted and             (1) identify an individual after
in a timely and effective manner.     resolved in FY 2013, at the time      the reorganization to perform
Our review covered employee           of our review, 62, or 85 percent,     audits and assessments of
and contractor concerns               had been resolved within              closed concerns, (2) coach
expressed between October             45 days.                              individuals addressing concerns
2011 and February 2013.                                                     on what constitutes a sufficient
                                      In reviewing program                  investigation, and (3) develop
The Non-Nuclear ECP was               effectiveness, we found               an instrument to send to
implemented in July 2010 for          improvements could be made.           complainants to identify instances
employees and contractors who         For example, our review               of retaliation and investigate as
support non-nuclear operations        identified instances where            necessary. TVA management
to provide an alternative for         program personnel did not fully       generally agreed with our
resolving concerns when going         address concerns. Of the              findings and recommendations
through the chain of command          50 concerns we sampled and            and is taking corrective action.
was not appropriate, or when          tested, in our opinion, three
doing so did not result in a          concerns were not adequately          TVA’s Nuclear Power
satisfactory resolution.              addressed, and two case files did     Group and Coal & Gas
                                      not contain enough information        Operations Critical Spare
We found that while the Non-          to draw a conclusion regarding        Parts Program
Nuclear ECP was addressing            the adequacy of the resolution.       TVA identified asset performance
concerns in a timely manner, the      In addition, a survey conducted       and operations as a major risk
effectiveness of the program          by the OIG disclosed 32 percent       for the agency. Without effective
could be improved. While the          of respondents felt their concerns    management of critical spare



                                                                                TVA OIG Semiannual Report   33
                                                                                                  Nickajack Dam




parts, TVA could face equipment      and location information in the       on spare parts; (3) work with
failure which could result in        system for critical spare parts was   Engineering Environmental &
increased safety risk and lost       unreliable. We also found the         Support Services to implement
generation. This review was          lack of critical spare parts had      controls over information
initiated to determine if the NPG    negatively affected system and        maintained in Maximo, including
and Coal & Gas Operations            component health, and while TVA       controls for identifying critical
(C&GO) were effectively              had taken steps to improve the        spare parts, and work with
managing critical spare parts.       identification and procurement        Supply Chain, accordingly, to
                                     of critical spare parts, C&GO         update Maximo; and
Our review found critical spare      had not implemented steps             (4) take steps to follow up on
parts could be managed more          recommended by a management           actions recommended by a
effectively. Specifically, we        consulting firm related to the        management consulting firm.
found (1) C&GO did not have a        management of critical spare          TVA management generally
standard procedure to govern         parts.                                agreed with our findings and
its critical spare parts program;                                          recommendations and is taking
(2) preventive maintenance was       We recommended TVA                    corrective action.
not being performed on critical      (1) develop C&GO procedures
spare parts at some C&GO             to govern the identification
plants; and (3) while our physical   and procurement of critical
inventory counts agreed with         spare parts; (2) ensure proper
information in Maximo, asset         maintenance is performed



 34   TVA OIG Semiannual Report
Actions to Address                   attention, and a red rating         actions were awaiting approval.
Nuclear Plant Systems,               requires excessive monitoring/      These actions resulted in an
Components, and                      resources to maintain.              improvement in condition to a
Programs with Poor                                                       white or green rating in 14 cases,
Ratings                              We found 333 systems, programs,     while 11 ratings remained red or
In the conduct of a prior            and components within NPG           yellow. It is important to note
inspection which culminated          had been designated red or          that of the 11 remaining red and
in the report titled, Survey of      yellow and randomly sampled         yellow ratings, 2 moved from red
TVA’s Process for Determining        25 for detailed review. Our         to yellow, and 9 remained the
Condition of Assets, dated           analysis showed at least two        same. In addition, 5 of the 9 that
September 20, 2012, we learned       actions were taken to address       remained red or yellow had some
that asset condition assessments     24 of the 25 items in our sample.   asset condition improvement,
completed by the NPG had             For one component, only one         but not sufficient improvement to
determined some generation           action was complete and other       downgrade it to a lower rating.
assets were in poor condition. As
a follow up to this prior work, we
performed a review to determine
whether TVA was taking actions
to address NPG systems,
components, and programs
with poor ratings. Under NPG’s
health report process, actions
are required when ratings are
designated red or yellow as
described ahead.

NPG requires system health
reports be prepared three
times a year and component
and program health reports be
prepared twice each year. Each
system, program, and component
report is assigned a color rating
of green, white, yellow, or red
based on the overall report score.
According to NPG-Standard
Programs and Processes, a green
rating requires no additional
attention, a white rating
designates current performance/
activities are appropriate, a          Blue Ridge
yellow rating needs additional




                                                                            TVA OIG Semiannual Report   35
   REPRESENTATIVE INVESTIGATIONS
                               TVA OIG Semiannual report




36 TVA OIG Semiannual Report
Summary of
REPRESENTATIVE INVESTIGATIONS
This reporting period, our investigative results include five indictments, one pretrial diversion, and one
conviction. Our investigations resulted in restitution and recoveries to TVA and other persons or entities
exceeding $10 million.




Federal Prosecution                    CDE Board of Directors or CDE          Mr. Walton, II, was found guilty
Completed for Former                   employees, and the United States       by a federal trial jury in
Clarksville Department of              contended Ingram’s scheme              January 2013 of nine counts
Electricity President and              deprived CDE and its customers         mail fraud and seven counts
Consultants                            of the honest services of              wire fraud. He was sentenced in
Rick R. Ingram, Sr., former            Mr. Ingram as CDE president.           August 2013 to serve four years
President of Clarksville                                                      in prison, followed by three years
Department of Electricity (CDE),       Mr. Ingram’s November                  of supervised release, comprised
was sentenced on November 5,           sentencing was based on his            of two years at a halfway house
2013, completing the prosecution       May 2012 guilty plea to two            and one year of home detention.
of three individuals engaged in        counts each of wire and mail           He was ordered to pay
a scheme including bribes and          fraud. He was ordered to serve         $95,211.38 restitution to CDE.
kickbacks during Mr. Ingram’s          46 months in prison followed by
tenure as CDE’s executive              three years of probation for his       Tommy L. Walton, Sr., and his
officer. As previously reported,       part in the scheme, and he was         business, Intelligent Surveillance,
in addition to Mr. Ingram’s            ordered to pay CDE $188,289.39         Inc., invoiced and received a total
involvement in this matter, two        restitution.                           of $32,150 from CDE during the
other individuals, a father and                                               November 2008 through
son with separate consulting           According to testimony at              June 2009 timeframe. During
businesses (Tommy L. Walton, II,       Mr. Ingram’s plea hearing, as          that same period, Mr. Walton,
and Tommy L. Walton, Sr.), were        CDE president, he hired the            Sr., paid nearly half that amount
convicted of related offenses and      Waltons as consultants to              ($16,015) back to Mr. Ingram.
sentenced.                             CDE during November 2008.
                                       From that time through                 Mr. Walton, Sr., pled guilty to
The Waltons were hired by              June 2009, Tommy L.                    eight counts of mail fraud and
Ingram as paid consultants to          Walton, II, and his business,          five counts of wire fraud during
CDE. Our investigation revealed        IntelliNet Consulting LLC invoiced     January 2013. He was sentenced
they provided covert payments          and received $156,139.39 from          the following August to 30 days
to Mr. Ingram for his approval         CDE. Mr. Walton, II, paid nearly       of imprisonment, followed by
of their inflated invoices. The        one-third of that total ($51,500)      three years of supervised release,
payments to Ingram were not            back to Mr. Ingram and/or one of       comprised of 18 months at a
disclosed to members of the            Mr. Ingram’s creditors.                halfway house and 18 months



                                                                                  TVA OIG Semiannual Report   37
                                                                                         Paradise Fossil Plant




of home detention. In addition,     2013, Mr. Polen was sentenced in     have on TVA’s reputation. Our
he was ordered to pay $32,150       federal court for these offenses.    investigation revealed Mr. Polen
restitution to CDE.                                                      fraudulently obtained millions of
                                    Mr. Polen was ordered to repay       dollars from investors by falsely
Prosecution Complete for            victims a total of $10,794,728.21.   promising to invest their money
Individual Fraudulently             Additionally, he was sentenced       in one or more of three sham
Garnering Investors for             to serve 71 months in prison         investment opportunities. The
Kingston Cleanup                    followed by five years of            largest scam, with the greatest
We previously reported the          probation.                           dollar loss to investors, was the
December 2012 guilty plea of                                             purported purchase of materials
Edward Shannon Polen--a former      The investigation was predicated     and supplies to assist with the
Robertson County, Tennessee,        on (1) complaints to the OIG         cleanup of the coal ash spill at
commissioner. Mr. Polen pled        alleging Mr. Polen conducted         TVA’s Kingston Fossil Plant. The
guilty to two counts each of wire   fraudulent investment schemes        victims of the coal ash scheme
and mail fraud and one count        against Tennessee Valley             were led to believe they were
each of bank fraud and money        residents and (2) the negative       helping TVA fund clean-up work
laundering. On December 19,         impact the scheme might              at Kingston.


 38   TVA OIG Semiannual Report
Mr. Polen promised the                fraudulently inflated invoices.     Craigslist and his TVA e-mail to
investments would generate            On January 15, 2014, Mr. Conn       solicit sexual encounters while on-
significant profits, knowing          pled guilty to one count of the     duty. The individual was initially
the investments were entirely         indictment and awaits sentencing.   suspended, pending further
fictitious. Having held various                                           investigation, and then resigned
official and political positions in   Computer Misuse Results             as a result of our inquiry.
Robertson County, he reportedly       in Resignation
leveraged his reputation to           Investigation activity revealed a
convince victims he had access        Nuclear employee used his TVA
to insider information enabling       computer to access numerous
his involvement in the investment     pornographic sites and utilized
opportunities.

TVA OIG was the lead
investigative agency in this case,
joined by the Internal Revenue
Service Criminal Investigation
Division; Tennessee Bureau of
Investigation; Special Inspector
General for the Troubled Asset
Relief Program; Hendersonville,
Tennessee, Police Department;
Regional Organized Crime
Information Center; and the
Tennessee Attorney General’s
Office.

TVA Vendor Convicted
On October 3, 2013, a federal
grand jury returned a
five-count indictment against
Frank Lewis Conn for violating
Title 18 United States Code 1343,
Wire Fraud. Mr. Conn was an
owner of Conn Equipment Rental
Company, which contracted
with TVA to remove vegetation
from TVA power lines and
other TVA property across the
Tennessee Valley. The indictment
alleged he devised a scheme to           Transmission Lines
defraud TVA of approximately
$152,712 through the use of


                                                                             TVA OIG Semiannual Report    39
            LEGISLATION & REGULATIONS
                               TVA OIG Semiannual report




40 TVA OIG Semiannual Report
Legislation & regulations
Section 4(a) of the Inspector General Act of 1978, as amended, provides that the Inspector General shall review
existing and proposed legislation and regulations relating to programs and operations of such establishment
and make recommendations in the semiannual reports…concerning the impact of such legislation or regulations
on the economy and efficiency in the administration of such programs and operations administered or financed
by such establishment or the prevention and detection of fraud and abuse in such programs and operations.




In this section of our semiannual     At times, we may direct               During this reporting period,
report, it is our intent to address   recommendations to general            we are not making any
only current and pending              positions and issues, particularly    recommendations to Congress
legislation which relates to          when there are multiple bills         regarding current or pending
the economy or efficiency of          dealing with the issue. At other      legislation.
TVA operations when we have           times, we anticipate making
recommendations or comments           recommendations relating to
to make to Congress regarding         particular statutes and bills and
the legislation.                      their particular wording.




   Sequoyah Nuclear Plant




                                                                                TVA OIG Semiannual Report   41
 APPENDICES
TVA OIG Semiannual report
                                                                                           Appendix 1


INDEX OF REPORTING REQUIREMENTS UNDER THE INSPECTOR GENERAL ACT

 REPORTING          REQUIREMENT                                                                 PAGE
 Section 4(a)(2)    Review of Legislation and Regulations                                          40

 Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                                22-39

                    Recommendations With Respect to Significant Problems, Abuses,
 Section 5(a)(2)                                                                                  22-39
                    and Deficiencies

                    Recommendations Described in Previous Semiannual Reports in
 Section 5(a)(3)                                                                                Appendix 5
                    Which Corrective Action Has Not Been Completed

                    Matters Referred to Prosecutive Authorities and the Prosecutions            Appendix 6
 Section 5(a)(4)
                    and Convictions That Have Resulted                                            36-39
 Section 5(a)(5)
                    Summary of Instances Where Information Was Refused                            None
 and 6(b)(2)

 Section 5(a)(6)    Listing of Audit and Evaluation Reports                                     Appendix 2


 Section 5(a)(7)    Summary of Particularly Significant Reports                                   22-39

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(8)                                                                                Appendix 3
                    Containing Questioned Costs

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(9)                                                                                Appendix 3
                    Containing Recommendations That Funds Be Put to Better Use

                    Summary of Audit and Evaluation Reports Issued Prior to the
 Section 5(a)(10)   Beginning of the Reporting Period for Which No Management                   Appendix 4
                    Decision Has Been Made

 Section 5(a)(11)   Significant Revised Management Decisions                                      None

                    Significant Management Decisions With Which the Inspector General
 Section 5(a)(12)                                                                                 None
                    Disagreed

                    Information Under Federal Financial Management Improvement Act                Not
 Section 5(a)(13)
                    of 1996                                                                     Applicable

                    Appendix of results of any peer review conducted by another Office of the
 Section 5(a)(14)   Inspector General during the reporting period and if none, a statement of   Appendix 9
                    the date of the last peer review

                    List of outstanding recommendations from any peer review conducted by
 Section 5(a)(15)   another Office of the Inspector General, including a statement describing     None
                    the status of the implementation and why implementation is not complete

                    List of peer reviews conducted of another Office of the Inspector
                    General during the reporting period, including a list of any outstanding
 Section 5(a)(16)                                                                                 None
                    recommendations made from any previous peer review that remain
                    outstanding or have not been implemented




                                                                                   TVA OIG Semiannual Report   43
Appendix 2

OIG AUDIT REPORTS • Issued During the Six-Month Period Ended March 31, 2014

     Report Number                                                                 Questioned   Unsupported     Funds Put To
                     Title
     and Date                                                                           Costs         Costs       Better Use

     CONTRACT AUDITS
     2013-15265
                     Proposal for Engineering Services                              $      0       $       0      $       0
     10/10/2013
     2012-14769
                     Phillips and Jordan, Inc.                                       366,401           16,744             0
     10/22/2013
     2013-15185
                     Proposal for Engineering Services                                     0               0              0
     11/07/2013
     2012-14666
                     URS, Inc.                                                       168,623               0              0
     11/15/2013
     2013-15314      Proposal for Construction/Modification Services for
                                                                                           0               0              0
     12/12/2013      Transmission/Power Supply Program
     2013-15252      Proposal for Construction/Modification Services for
                                                                                           0               0      4,570,000
     01/08/2014      Transmission/Power Supply Program
     2012-14912
                     AMEC Environment and Infrastructure, Inc.                       100,441           13,843             0
     01/21/2014
     2013-15266
                     Proposal for Engineering Services                                     0               0              0
     01/24/2014
     2013-15190
                     Proposal for Hydro Modernization and Rehab                            0               0        414,250
     02/03/2014
     2013-15330      Proposal for Construction/Modification Services for
                                                                                           0               0      4,600,000
     02/10/2014      Transmission/Power Supply Program
     2013-15350      Proposal for Construction/Modification Services for
                                                                                           0               0              0
     02/13/2014      Transmission/Power Supply Program
     CORPORATE GOVERNANCE AND FINANCE AUDITS
     2013-15369
                     Agreed-Upon Procedures for TVA FY 2013 Performance Measures          $0              $0             $0
     11/07/2013
     2014-15209
                     TVA’s Compliance with IPIA FY 2013                                   $0              $0             $0
     03/12/2014
     2011-14477-01
                     Follow-up Audit of TVA’s Financial Trading Program                   $0              $0             $0
     03/28/2014
     OPERATIONAL AUDITS
     2012-14631
                     TVA’s Management of Combustible Coal Dust                            $0              $0             $0
     11/14/2013
     2012-14742
                     Long-Term Equipment Reliability Risk                                 $0              $0             $0
     12/16/2013
     2012-14744
                     Asset Performance Vulnerability Risk - Equipment                     $0              $0             $0
     03/28/2014
     INFORMATION TECHNOLOGY AUDITS
     2013-14948
                     AirWatch Pre-implementation Audit                                    $0              $0             $0
     12/18/2013
     2013-15104
                     PowerWAN Security and Architecture                                   $0              $0             $0
     02/12/2014
     2013-15284
                     CXL Application Audit                                                $0              $0             $0
     02/25/2014
     TOTAL
                                                                                   $ 635,465       $30,587      $9,584,250
     AUDITS (20)




44     TVA OIG Semiannual Report
                                                                                                           Appendix 2

OIG Evaluation REPORTS • Issued During the Six-Month Period Ended March 31, 2014

 Report Number                                                                         Questioned       Unsupported   Funds Put To
                       Title
 and Date                                                                                   Costs             Costs     Better Use
 2012-14587
                       NPG and CG&O Critical Spare Parts Programs                             $0                $0             $0
 10/17/2013
 2013-14984
                       TVA’s Non-Nuclear Concerns Resolution                                  $0                $0             $0
 02/06/2014
 2012-14842            Actions to Address Nuclear Plan Systems, Components, and
                                                                                              $0                $0             $0
 03/27/2014            Programs with Poor Ratings

 Total
                                                                                              $0                $0             $0
 EVALUATIONS (3)


 Note: A summary of or link to the full report may be found on the OIG’s Web site at www.oig.tva.gov.




   Widows Creek Fossil Plant




                                                                                              TVA OIG Semiannual Report          45
Appendix 3


TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • AUDITS

                                                                                Number              Questioned          Unsupported
    Audit Reports                                                             of Reports                 Costs                Costs

    A. For which no management decision has been made by
                                                                                         1            $2,187,410            $2,098,775
       the commencement of the period


    B. Which were issued during the reporting period                                     3              $635,465               $30,587

    Subtotal (A+B)                                                                       4            $2,822,875            $2,129,362

    C. For which a management decision was made during the                                   1
                                                                                         4            $2,822,875            $2,129,362
       reporting period

      1. Dollar value of disallowed costs                                                4              $308,089               $32,567

      2. Dollar value of costs not disallowed                                            2            $2,514,786            $2,096,795

    D. For which no management decision has been made by the
                                                                                         0                     $0                    $0
       end of the reporting period

    E. For which no management decision was made within six
                                                                                         0                     $0                    $0
       months of issuance

1
    The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and 	
    C(2) when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • EVALUATIONS

                                                                                Number              Questioned          Unsupported
    Evaluation Reports                                                        of Reports                 Costs                Costs

    A. For which no management decision has been made by the
                                                                                         0                     $0                    $0
       commencement of the period


    B. Which were issued during the reporting period                                     0                     $0                    $0

    Subtotal (A+B)                                                                       0                     $0                    $0

    C. For which a management decision was made during the
                                                                                         0                     $0                    $0
       reporting period

      1. Dollar value of disallowed costs                                                0                     $0                    $0

      2. Dollar value of costs not disallowed                                            0                     $0                    $0

    D. For which no management decision has been made by the
                                                                                         0                     $0                    $0
       end of the reporting period

    E. For which no management decision was made within six
                                                                                         0                     $0                    $0
       months of issuance
                                                                                               Appendix 3


TABLE II • FUNDS TO BE PUT TO BETTER USE • AUDITS

                                                                                          Number     Funds To Be Put
Audit Reports                                                                           of Reports     To Better Use

A. For which no management decision has been made by the commencement of the period             6        $12,990,543

B. Which were issued during the reporting period                                                3         $9,584,250

Subtotal (A+B)                                                                                  9        $22,574,793

C. For which a management decision was made during the reporting period                         8        $22,160,543

  1. Dollar value of recommendations agreed to by management                                    7        $20,938,043

  2. Dollar value of recommendations not agreed to by management                                1         $1,222,500

D. For which no management decision has been made by the end of the reporting period            1           $414,250

E. For which no management decision was made within six months of issuance                      0                  $0




TABLE II • FUNDS TO BE PUT TO BETTER USE • EVALUATIONS

                                                                                          Number     Funds To Be Put
Evaluation Reports                                                                      of Reports     To Better Use

A. For which no management decision has been made by the commencement of the period             0                  $0

B. Which were issued during the reporting period                                                0                  $0

Subtotal (A+B)                                                                                  0                  $0

C. For which a management decision was made during the reporting period                         0                  $0

  1. Dollar value of recommendations agreed to by management                                    0                  $0

  2. Dollar value of recommendations not agreed to by management                                0                  $0

D. For which no management decision has been made by the end of the reporting period            0                  $0

E. For which no management decision was made within six months of issuance                      0                  $0




                                                                                       TVA OIG Semiannual Report   47
  Appendix 4

EVALUATION REPORTS WITH NO MANAGEMENT DECISION

The following two evaluation reports were issued before the commencement of the semiannual period; however, management decision on
all the recommendations in these reports had not been received by the end of the reporting period.



Evaluation Report Report Title, Summary, and Explanation of Reasons Management Decision Was Not Made by the End of the
Number and Date Reporting Period

2013-14950
                   TVA’s Succession Planning
09/19/2013

                   The TVA has stated its future depends on effective succession planning and faces a potential workforce challenge
                   due to retirements within the next five years. Also, TVA has identified a risk of senior leadership attrition that could
                   leave a gap in key positions. This review was conducted as a follow up to a previous OIG review to assess TVA’s
                   succession planning.

                   Our review found TVA has made improvements to succession planning; however, areas for improvement still exist.
                   Improvements include the use of a talent grid, implementation of succession planning metrics, and a more accurate
                   attrition prediction model. In addition, we found TVA could strengthen some best practices.

                   While TVA has made progress in its succession planning process, we found through interviews and review of
                   documentation areas for improvement still exist, including: (1) follow up on action items identified in talent reviews,
                   including the development of organizational action plans; (2) cross-pollination of talent; (3) reduction of talent review
                   preparation time; and (4) less frequent revisions of the talent review and succession planning process, which have
                   caused frustration among TVA management. Additionally, TVA is working to address areas of concern regarding
                   populating the succession plans with realistic candidates.

                   As part of this review, we identified succession planning best practices and compared them to the processes
                   TVA currently has in place. Of ten best practices identified, we found TVA could strengthen executive ownership,
                   onboarding of succession candidates, and transparency of the succession planning process. In addition to these
                   findings, all TVA managers who were interviewed expressed concerns with the use of forced distribution for the
                   talent grid.

                   We recommended the Vice President, Human Resources: (1) work in conjunction with TVA organizations to improve
                   follow-up actions by developing organizational action plans as stated in TVA-SPP-11.301, Succession Planning,
                   Section 3.2.3; (2) evaluate options to incorporate cross-pollination of TVA organizations into the succession planning
                   process, including a unified succession planning system that could also reduce talent review preparation;
                   (3) determine if changes and initiatives to the talent review and succession planning process are working and
                   intended results are achieved before additional changes are made; (4) complete and implement the Strategic
                   Workforce Management, Standard Programs and Processes, including a unified definition for a mission critical
                   position; (5) work with TVA management to develop a plan that promotes executive ownership of talent
                   development; (6) consider developing formalized transition plans, similar to the Nuclear Power Group (NPG), in other
                   organizations; (7) clarify the succession planning process by producing a high-level, TVA-wide communication that
                   describes the talent review and succession planning process, and consider the merits of communicating performance
                   and potential.

                   We did not receive management decision or a date for final action on two of the seven recommendations, numbers
                   one and five above, by the end of the reporting period.




   48   TVA OIG Semiannual Report
                                                                                                             Appendix 4

EVALUATION REPORTS WITH NO MANAGEMENT DECISION (CONTINUED)


Evaluation Report Report Title, Summary, and Explanation of Reasons Management Decision Was Not Made by the End of the
Number and Date Reporting Period

2012-14845
                  TVA’s Nuclear Power Group Preventive Maintenance
09/24/2013

                  Preventive Maintenance (PM) is important to the reliable operation of assets. As a result of recent issues with nuclear
                  performance, we conducted a review of NPG’s PM program to determine if nuclear plant PM had been performed in
                  accordance with established schedules and, if not, what effect the deviations were having.

                  We found that the reported PM metrics may not be accurate. During our review, we identified several concerns that
                  raised questions about the validity of the reported PM metrics. For calendar year 2012, we were provided two sets
                  of PM metrics for each site. There were differences in the data sets and some of the differences were significant.
                  Additionally, the three plants were not consistently using the “Counts as Deferral” flag in Maximo, thus preventing
                  certain deferrals from being identified and considered for the deferral count. Also, we found there was inconsistency
                  in how the Late PM metric was reported. These issues will impact the value of the NPG Equipment Reliability Index,
                  which is part of NPG’s Winning Performance Scorecard for fiscal year 2013. We also found that the deviations from
                  PM schedules were negatively affecting system and component health. While PM program health has historically
                  been rated poorly, there has been improvement recently. TVA started a PM Optimization (PMO) program to bring its
                  PM program in line with industry standards. Due to slow progress at the three plants, escalations were filed to raise
                  the concern to a higher level.

                  We recommended the Executive Vice President and Chief Generation Officer, Generation, take steps to (1) define
                  methods for consistent and accurate reporting of PM metrics across the nuclear fleet, including a step for verification
                  and retention of documentation for items manually excluded; (2) address the issue with the “Counts as Deferral”
                  flag used in PM tracking; (3) perform an analysis to determine what impact inaccurate PM data could have on the
                  Equipment Reliability Index calculation for fiscal year 2013 Winning Performance; (4) reduce deviations from PM
                  schedules; (5) take necessary actions to prevent reoccurring PMO implementation problems resulting from lack of
                  site support; and (6) expedite PMO efforts. TVA management agreed our recommendations.

                  We did not receive management decision on two of the six recommendations, numbers five and six above, by the
                  end of the reporting period. However, we did receive the decisions on April 3, 2014, along with an expected date
                  for final action of April 30, 2014, for recommendation number five, and August 31, 2014, for recommendation
                  number six.




                                                                                                   TVA OIG Semiannual Report          49
   Appendix 5

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING

As of the end of the semiannual period, final corrective actions associated with 21 audits and 7 evaluations reported in previous semiannual
reports were not completed. Presented below for each audit and evaluation are the report number, date, and a brief description of final
actions planned to resolve the open recommendations, including the date management expects to complete final action.


Audit Report
                Report Title and Recommendation(s) for Which Final Action is Not Complete
Number and Date


                     Physical and Logical Access for Contractors
2010-13132           TVA agreed to create a cross-reference matrix of TVA roles to assets with the associated qualification/background
06/15/2011           requirements needed to gain access to that asset and develop a process to restrict contractor access to sensitive
                     data and assets until the proper clearances have been obtained. Management expects to complete final action by
                     December 31, 2014.

                     Regional Operations Center and System Operations Center Cyber Security Audit
                     TVA agreed to (1) review the three servers without logon banners and, if technically feasible, add the logon
2011-14177           banner, perform a comprehensive review of unnecessary services and protocols, implement restrictions on the
04/23/2012           basis of operations requirement, and research utilizing Secure Shell (Version 2) for remote access with vendors
                     and, if technically feasible, implement Secure Shell; and (2) monitor all production servers using the configuration
                     management tool. Management expects to complete final action by December 31, 2014.

                     TVA’s Direct Load Control Program
                     TVA agreed to (1) develop a replacement option strategy, including meeting with the “Cycle and Save” participants,
                     and seek potential options, and (2) audit each distributor participating in the Direct Load Control Program, per the
2011-14244           terms of the contract to determine the effectiveness of installed switches, and modify distributor credit calculations,
09/28/2012           accordingly, per the terms of the current contract. Management expected to complete final action by
                     September 30, 2013. In January 2014, management informed us it had bought out the ten-year contracts of nine of
                     the twelve participating distributors and was working with the remaining three distributors to develop a replacement
                     option strategy.

                     River Forecast Center Cyber Security Audit
2012-14596           TVA agreed to adhere to the TVA Continuous Monitoring Strategy and develop a backup and recovery process for the
12/20/2012           nonpower SCADA system and ensure necessary personnel are properly trained should the system fail. Management
                     completed and provided notice of final action on April 1, 2014.

                     Building and Infrastructure Failure Risks
                     TVA agreed to (1) submit a risk-based budget request for additional funding in FY 2014, (2) reexamine TVA’s approach
2012-14567           to challenged properties under its Strategic Real Estate Plan, (3) meet with executives and operating unit leaders
01/30/2013           to improve communication of Facilities Asset Management plans and projects, (4) enhance Tririga functionality for
                     building asset information, and (5) address weaknesses in the Tririga production database. Management expects to
                     complete final action by March 31, 2015.

                     Proposal for Hydro Modernization and Unit Rehabilitation
2013-14951           TVA agreed to (1) negotiate the recommended rates and caps into the contract; and (2) reject the excessive profit
05/31/2013           rate proposed, which is expected to result in $3.46 million in savings over the contract term. Management expects to
                     complete final action by May 31, 2014.

                     MPW Industrial Services
2011-14276
06/10/2013           TVA agreed to pursue recovery of $315,912 of overbilled costs and $38,066 in duplicate payments made by TVA.
                     Management expects to complete final action by June 10, 2014.




    50   TVA OIG Semiannual Report
                                                                                                               Appendix 5

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


Audit Report
                Report Title and Recommendation(s) for Which Final Action is Not Complete
Number and Date


                  Proposal for Engineering Services
2013-15054
06/10/2013        TVA agreed to negotiate the recommended fee rate and ODC rate into the contract, which is expected to result in
                  about $4.2 million in savings over the contract term. Management expects to complete final action by June 10, 2014.

                  Protection of Personally Identifiable Information on TVA Desktop and Laptop Computers
2013-14983
06/14/2013        TVA management agreed to evaluate the feasibility of full disc encryption and other methods of protection of data on
                  TVA personnel computers. Management expects to complete final action by December 31, 2014.

                  Effectiveness of Substation Modem Access
2012-14619        TVA Information Technology agreed to work with the business units to update the request and provisioning process
06/18/2013        and to develop processes for providing inventory information. TVA Energy Delivery is working with the meter
                  interrogation vendor to modify the nightly program to include a check of password settings. Management expects to
                  complete final action by September 30, 2014.

                  Proposal for Engineering Services
2013-15011
07/03/2013        TVA agreed to negotiate the blended labor markup rates into the contract, which is expected to result in savings of
                  about $3.7 million over the contract term. Management expects to complete final action by July 3, 2014.

                  Proposal for Engineering Services
2013-15098        TVA agreed to (1) further negotiate an unburdened fee with the vendor, (2) incorporate the OIG reviewed rates in
07/12/2013        the contract through further negotiations with the vendor, and (3) ask the vendor to submit their actual salary ranges
                  for the labor classifications for further review. Actions are expected to result in savings of about $2.5 million over the
                  contract term. Management expects to complete final action by July 12, 2014.
                  Proposal for Engineering Services
2013-15057        TVA agreed to negotiate a 10 percent reduction to the overhead rate in the proposed contract and request the
07/24/2013        vendor to provide their actual salary rate ranges for further review. Actions are expected to result in savings of about
                  $1.6 million over the contract term. Management expects to complete final action by July 24, 2014.
                  Proposal for Engineering Services
2013-15055        TVA agreed to (1) further negotiate a lower unburdened fee with the vendor, (2) negotiate OIG reviewed rates with
07/26/2013        the vendor, and (3) ask the vendor to submit their actual salary ranges for the labor classifications for further review.
                  Actions are expected to result in savings of about $5.6 million over the contract term. Management expects to
                  complete final action by July 26, 2014.

                  NOL-TEC Systems, Inc.
2012-14741
08/20/2013        TVA agreed to pursue recovery of $252,800 in remaining overbilled costs from Nol-Tec. Management expects to
                  complete final action by August 20, 2014.


                  Significant Equipment Failure Risk – Energy Delivery
2012-14745        TVA agreed to update the risk management report to clarify the description of the risk mitigation and appropriate
08/28/2013        level of acceptable financial risk and/or work to establish an appropriate level of funding needed. Management
                  expects to complete final action by August 28, 2014.

                  Oversight of Distributor Compliance
                  TVA agreed to (1) test a recurring cycle from the summer, winter, and transition periods, while considering the time
2013-14966        and cost of examination, (2) include the replacement sample methodology in the sampling methodology as an
08/28/2013        appendix in their reports, and (3) identify potential root cause activity and make recommendations to help prevent or
                  detect errors from occurring in the future, when possible. Management expects to complete final action by April 30,
                  2014.


                                                                                                     TVA OIG Semiannual Report           51
  Appendix 5

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


Audit Report
                Report Title and Recommendation(s) for Which Final Action is Not Complete
Number and Date

                  Proposal For Engineering Services
2013-15203        TVA plans to (1) further negotiate a lower fee rate than proposed, on unburdened costs only with a target of
08/29/2013        10 percent to 15 percent, (2) incorporate the OIG reviewed rates in negotiations with the vendor, and (3) require the
                  vendor to submit actual salary ranges for labor classifications for further review. Management expects to complete
                  final action by August 29, 2014.
                  AREVA DZ LLC – Review of Increase in Contract Limit
2013-15308        TVA agreed with the findings and will pursue negotiations with ADZ accordingly. However, Nuclear group’s current
09/10/2013        business model is being reevaluated in which these services may be performed in-house, thereby reducing the original
                  projected spend. Management expects to complete final action by September 10, 2014.
                  TVA Valley Investment Initiative Program
2013-14993        TVA management agreed to (1) update the TVA SPP for the VII program to accurately reflect the current statuses
09/18/2013        of EGCs and financial reviews, (2) establish performance measures for the VII program, (3) implement an evaluation
                  study of the VII program, and (4) implement guidelines for independent verification of documentation received from
                  companies participating in the VII program. Management expects to complete final action by September 17, 2014.

                  Merrick & Company
2013-15215
09/26/2013        TVA is in the process of negotiating lower fee rates on unburdened labor costs with Merrick and its subcontractor,
                  Atkins. Management expects to complete final action by September 26, 2014.


Evaluation Report
                  Report Title and Recommendations on which Final Action is Not Complete
Number and Date


                  TVA Records Retention
2008-11829
06/02/2010        TVA agreed to continue current plans to replace the Electronic Data Management System. Management expects to
                  complete final action by May 29, 2015.


                  TVA Groundwater Monitoring at Coal Combustion Products Disposal Areas
2009-12991
06/21/2011        TVA agreed to continue with the assessment plan and initiate corrective actions for Cumberland and Gallatin fossil
                  plants. Management expects to complete final action by June 21, 2014.



                  Master Key Program Management – Energy Delivery
2012-14535
03/21/2013        TVA agreed to secure facilities protected by MA keys to minimize the risk posed by keys outside TVA’s control.
                  Management expects to complete final action by September 30, 2016.


                  Coal and Gas Operations Emergency Preparedness and Response
2012-14523        TVA agreed to standardize program management and emergency plans, continue toward an in-depth emergency
05/14/2013        management program through the training and exercise program, and evaluate work balance in emergency roles of
                  shift operations supervisors. Management expects to complete final action by May 14, 2014.

                  Watts Bar Nuclear Unit 2 Quality Assurance Program
2012-14623        TVA agreed to make implementing the process for the transfer of authority for the execution of the QA program from
06/27/2013        Bechtel Quality Assurance (QA) to Nuclear Construction QA a priority. Management expects to complete final action
                  by June 27, 2014.




  52   TVA OIG Semiannual Report
                                                                                                          Appendix 5

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING

 Evaluations
 Report Number    Report Title and Recommendation(s) for Which Final Action is Not Complete
 and Date
                  Master Key Program Management – Property & Natural Resources
 2012-14636       TVA agreed to develop standard policies and procedures and secure facilities protected by master keys to minimize
 08/28/2013       the risk posed by master keys outside TVA’s control. Management expects to complete final action by September 30,
                  2015.
                  TVA’s Capital Projects Approval Process
 2012-14789       TVA agreed to design and implement a forecasting and project prioritization process that will capture budget and
 09/27/2013       forecasting information at a project level in a timely, accurate manner. Management expects to complete final action
                  by September 30, 2014.




Bellefonte Nuclear Plant




                                                                                                TVA OIG Semiannual Report         53
     Appendix 6
                                                                                                 1
INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS


 Referrals
 	           Subjects Referred to U.S. Attorneys                                                     14

 	           Subjects Referred to State/Local Authorities                                             2

 Results
 	           Subject Indicted                                                                         5

 	           Subjects Convicted                                                                       1

 	           Pretrial Diversion                                                                       1

 	           Referrals Declined                                                                      20

 1
     These numbers include task force activities and joint investigations with other agencies.




                                                                                                          Boone Dam




     54    TVA OIG Semiannual Report
                                                                                                               Appendix 7

 HIGHLIGHTS – STATISTICS
                                                                   MAR 31,        SEPT 30,        MAR 31,    SEPT 30,    MAR 31,
                                                                     2014            2013           2013        2012       2012
  AUDITS
  AUDIT STATISTICS
  Carried Forward                                                       28             38              32         35          34
  Started                                                               17             21              23         28          23
  Canceled                                                               (1)            (1)            (1)         (6)         (2)
  Completed                                                             (20)           (30)           (16)        (25)        (20)
  In Progress at End of Reporting Period                                24             28              38         32          35


  AUDIT RESULTS (Thousands)
  Questioned Costs                                                    $635          $2,916         $1,262     $11,708      $5,110
  Disallowed by TVA                                                   $308           $647          $2,039      $9,153      $5,695
  Recovered by TVA                                                    $164          $2,447           $559     $4,1681     $1,1432


  Funds to Be Put to Better Use                                     $9,584         $36,522             $0     $10,204      $6,702
  Agreed to by TVA                                                 $20,938         $23,100             $0      $1,235      $9,558
  Realized by TVA                                                     $375          $2,479           $145      $1,235     $2,4413


  OTHER AUDIT-RELATED PROJECTS
  Completed                                                              5              5               7         10           9
  Cost Savings Identified/Realized (Thousands)                          $0             $0              $0         $0          $0


  EVALUATIONS
  Completed                                                              3              6               6          6           1
  Cost Savings Identified/Realized (Thousands)                          $0             $0              $0         $0          $0


  INVESTIGATIONS4
  INVESTIGATION CASELOAD
  Opened                                                               112            173             134        148         178
  Closed                                                               148            158             105        157         202
  In Progress at End of Reporting Period                               150            179             160        128         146


  INVESTIGATIVE RESULTS (Thousands)
  Recoveries                                                     $10,874.75         $899.9             $0    $4,416.4       $17.5
  Savings                                                               $0          $550.4         $770.2    $1,454.7         $0
  Fines/Penalties                                                       $1          $603.8             $0        $0.3        $1.7
  Other Monetary Loss                                                   $0          $519.3             $0       $83.4    $496,500


  MANAGEMENT ACTIONS
  Disciplinary Actions Taken (No. of Subjects)                          22             18              16         11          19

  Counseling/Management Techniques Employed (No. of Cases)              14             20              14         20          24
  Debarment                                                              0              0               0          0           2


  PROSECUTIVE ACTIVITIES (No. of Subjects)
  Referred to U.S. Attorneys                                            14             18              13         12          14
  Referred to State/Local Authorities                                    2              0               0          7           1
  Indicted                                                               5              0               2          1           5
  Convicted                                                              1              2               4          1           4
  Pretrial Diversion                                                     1              0               0          0           1



	 1   Includes $109,054 recovered in excess of amounts decided by management.
	 2   Includes $198,352 recovered in excess of amounts decided by management.
	 3   Includes $18,474 savings realized in excess of amounts decided by management.
	 4   These numbers include task force activities and joint investigations with other agencies.
	 5   $10,794,728 of this total is restitution ordered in a TVA OIG led federal criminal case.
		    The defendant was ordered to repay victims of a Ponzi scheme, the largest portion of which was
		    comprised of his fraudulent collection of money from Valley-wide investors under the pretense that
		    they were helping fund the Kingston ash spill remediation.


                                                                                                       TVA OIG Semiannual Report     55
Appendix 8

Government Contractor Audit Findings

The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General
appointed under the Inspector General Act of 1978 to submit an appendix on final, completed contract
audit reports issued to the contracting activity that contain significant audit findings—unsupported,
questioned, or disallowed costs in an amount in excess of $10 million, or other significant findings—as part
of the Semiannual Report to Congress. During this reporting period, OIG issued no contract review reports
under this requirement.




 56   TVA OIG Semiannual Report
                                                                                      Appendix 9

Peer Reviews of the TVA OIG

Audits Peer Review                                     Investigations Peer Review
IG audit organizations are required to undergo         Investigative operations undergoes an external
an external peer review of their system of quality     peer review, Quality Assessment Review (QAR), at
control at least once every three years, based         least once every three years. The United States
on requirements in the Government Auditing             Department of Commerce OIG conducted a QAR
Standards. Federal audit organizations can receive     of the TVA OIG Investigative Operations. The
a rating of pass, pass with deficiencies, or fail.     Commerce OIG found the “…system of internal
TVA OIG underwent its most recent peer review          safeguards and management procedures for the
of its audit organization for the period ended         investigative function of the Office of Inspector
September 30, 2013. The review was performed           General for the Tennessee Valley Authority in effect
by the Special Inspector General for the Troubled      for the year ended April 30, 2013, is in compliance
Asset Relief Program (SIGTARP). The SIGTARP            with the quality standards established by CIGIE and
issued the report, dated March 31, 2014, in which      the applicable Attorney General guidelines. These
it concluded the TVA OIG audit organization’s          safeguards and procedures provide reasonable
system of quality control for the fiscal year ended    assurance of conforming with professional
September 30, 2013, was suitably designed and          standards in the planning, execution and reporting
complied with to provide the OIG with reasonable       of its investigations.” The QAR report can be
assurance of performing and reporting in conformity    found on our Web site at http://oig.tva.gov/
with applicable professional auditing standards in     PDF/22NOV2013-tvaoig-inv-peer-review.pdf.
all material respects. Accordingly, the TVA OIG
received a rating of pass. The peer review report is
posted on our Web site at http://www.oig.tva.gov/
PDF/PeerReviewReport03312014.pdf.




                                                                             TVA OIG Semiannual Report   57
                                    GLOSSARY
                                 TVA OIG Semiannual report




58   TVA OIG Semiannual Report
                                                                                              Glossary


Disallowed Cost – A questioned cost that management, in a management decision, has sustained or agreed
should not be charged to the agency.

Final Action – The completion of all management actions, as described in a management decision, with
respect to audit findings and recommendations. When management concludes no action is necessary, final action
occurs when a management decision is made.

Funds Put To Better Use – Funds which the OIG has disclosed in an audit report that could be used more
efficiently by reducing outlays, deobligating program or operational funds, avoiding unnecessary expenditures, or
taking other efficiency measures.

Improper Payment – Any payment that should not have been made or was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable requirements, as defined in the IPIA.

Management Decision – Evaluation by management of the audit findings and recommendations and the
issuance of a final decision by management concerning its response to such findings and recommendations.

Questioned Cost – A cost the IG questions because (1) of an alleged violation of a law, regulation, contract,
cooperative agreement, or other document governing the expenditure of funds; (2) such cost is not supported
by adequate documentation; or (3) the expenditure of funds for the intended purposes was unnecessary or
unreasonable.

Unsupported Costs – A cost that is questioned because of the lack of adequate documentation at the time of
the audit.




                                                                                     TVA OIG Semiannual Report      59
Abbreviations & Acronyms

        The following are acronyms and abbreviations widely used in this report.



        BYOD.................................................................................................................. Bring Your Own Device
        CDE.................................................................................................Clarksville Department of Electricity
        C&GO.................................................................................................................. Coal & Gas Operations
        CO..................................................................................................................................Coal Operations
        ECP............................................................................................................ Employee Concerns Program
        ERM............................................................................................................ Enterprise Risk Management
        FTP................................................................................................................. Financial Trading Program
        FY	............................................................................................................................................Fiscal Year
        IG	................................................................................................................................Inspector General
        IPIA................................................................................................... Improper Payment Information Act
        IT	 ...................................................................................................................... Information Technology
        MDM...........................................................................................................Mobile Device Management
        Mercatus......................................................................................................... Mercatus Energy Advisors
        NPG....................................................................................................................... Nuclear Power Group
        OIG......................................................................................................... Office of the Inspector General
        PM......................................................................................................................Preventive Maintenance
        PMO............................................................................................ Preventive Maintenance Optimization
        QA.............................................................................................................................. Quality Assurance
        TVA................................................................................................................ Tennessee Valley Authority
        WP......................................................................................................................... Winning Performance




60   TVA OIG Semiannual Report
          Office of the Inspector General
          400 West Summit Hill Drive
          Knoxville, Tennessee 37902

The OIG is an independent organization charged with
conducting audits, evaluations, and investigations relating to
TVA programs and operations, while keeping the TVA Board              BE A HERO
and Congress fully and currently informed about problems and                                   REPORT FRAUD
deficiencies relating to the administration of such programs and
operations.

The OIG focuses on (1) making TVA’s programs and operations
more effective and efficient; (2) preventing, identifying, and
eliminating waste, fraud, and abuse as well as violations of laws,
rules, or regulations; and (3) promoting integrity in financial
reporting.

If you would like to report to the OIG any concerns about fraud,
waste, or abuse involving TVA programs or violations of TVA’s
Code of Conduct, you should contact the OIG EmPowerline
system. The EmPowerline is administered by a third-party
contractor and can be reached 24 hours a day, seven days a
week, either by a toll-free phone call (1-855-882-8585) or on the
Web (www.oigempowerline.com). You may report your concerns
anonymously or you may request confidentiality.                      Contact the OIG EmPowerline® at 855-882-8585
                                                                                      or online at www.OIGempowerline.com

                                                                                                  YOU CAN MAKE A DIFFERENCE
                                                                      If you see or suspect wrongdoing, say something. TVA may be able to recover money and you could receive a cash reward from the
                                                                      TVA Office of the Inspector General. Visit our EmPowerline® Web site at www.oigempowerline.com or call toll-free at 855-882-8585.




Leadership
            OIG


          PHILOSOPHY


The TVA OIG strives to be a high performing organization made up of dedicated
individuals who are empowered, motivated, competent, and committed to
producing high quality work that improves TVA and life in the Valley.
Each of us has important leadership, management, team, and technical roles.
We value integrity, people, open communication, expansion of knowledge and
skills, creative problem solving and collaborative decision making.




                                                                                                                TVA OIG Semiannual Report                                                                 61
                               Office of the Inspector General
                               Tennessee Valley Authority
                               Semiannual Report
                               October 1, 2013 - March 31, 2014

62 TVA OIG Semiannual Report
